<html>
<title> - THE OLDER AMERICANS ACT MAKING REAUTHORIZATION WORK FOR WISCONSIN'S SENIORS</title>
<body><pre>[Senate Hearing 111-842]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-842
 
                        THE OLDER AMERICANS ACT 
          MAKING REAUTHORIZATION WORK FOR WISCONSIN'S SENIORS 

=======================================================================

                             FIELD HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MILWAUKEE, WI

                               __________

                           SEPTEMBER 7, 2010

                               __________

                           Serial No. 111-24

         Printed for the use of the Special Committee on Aging



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

63-679 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















                       SPECIAL COMMITTEE ON AGING

                     HERB KOHL, Wisconsin, Chairman
RON WYDEN, Oregon                    BOB CORKER, Tennessee
BLANCHE L. LINCOLN, Arkansas         RICHARD SHELBY, Alabama
EVAN BAYH, Indiana                   SUSAN COLLINS, Maine
BILL NELSON, Florida                 GEORGE LeMIEUX, FLORIDA
ROBERT P. CASEY, Jr., Pennsylvania   ORRIN HATCH, Utah
CLAIRE McCASKILL, Missouri           SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     LINDSEY GRAHAM, South Carolina
MARK UDALL, Colorado                 SAXBY CHAMBLISS, Georgia
KIRSTEN GILLIBRAND, New York
MICHAEL BENNET, Colorado
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
                 Debra Whitman, Majority Staff Director
             Michael Bassett, Ranking Member Staff Director

                                  (ii)

  




















                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Herb Kohl...........................     1

                                Panel I

Statement of Kathy Greenlee, U.S. Assistant Secretary For Aging, 
  U.S. Department of Health and Human Services...................     3

                                Panel II

Statement of Kay Brown, Director, Education Workforce Income 
  Security Team, U.S. Government Accountability Office...........    17
Statement of Dorothy Williams, Family Caregiver, Wauwatosa, WI...    40
Statement of Stephanie Stein, Director, Milwaukee County 
  Department on Aging............................................    43
Statement of Heather Bruemmer, Executive Director and State 
  Ombudsman, Wisconsin Board on Aging and Long-Term Care.........    51

                                APPENDIX

Testimony submitted by Loree Cook-Daniels, FORGE Transgender 
  Aging Network..................................................    62
Testimony submitted by John Hendrick, Coalition of Wisconsin 
  Aging Groups (CWAG)............................................    64
Statement submitted by Latoya White, homecare worker.............    65

                                 (iii)

  


                        THE OLDER AMERICANS ACT:
          MAKING REAUTHORIZATION WORK FOR WISCONSIN'S SENIORS

                              ----------                              --



                       TUESDAY, SEPTEMBER 7, 2010


                                       U.S. Senate,
                                Special Committee on Aging,
                                                     Milwaukee, WI.
    The Committee met, pursuant to notice, at 1 p.m. in the 
Main Hall, Wilson Senior Center, 2601 West Howard Avenue, 
Milwaukee, WI, Hon. Herb Kohl, presiding.
    Present: Senator Kohl [presiding].
    Moderator. Good afternoon and thank you all for coming 
today to our hearing on Older Americans Act.
    This is an official Senate hearing that will be transcribed 
and placed in the Congressional Record. As such, there will not 
be an opportunity for questions from the audience today. 
However, if you'd like to submit a written statement, we'll be 
happy to include it in the hearing record, and on all your 
chairs are forms which you can use to write comments and ideas 
to the Senator and members of the panel.
    The deadline for testimony is Tuesday, September 21, and if 
you have any additional questions, please see Cara Goldstein or 
myself immediately after the hearing and we'd be happy to help 
you in any way.

        OPENING STATEMENT OF SENATOR HERB KOHL, CHAIRMAN

    The Chairman. Thank you very much, and thank you, ladies 
and gentlemen, for allowing us to come here today to the Wilson 
Senior Center.
    It's very nice to be holding an Aging Committee here in my 
hometown.
    Back in 1965, President Johnson signed into law the Older 
Americans Act which provides the bulk of aging-related 
programs. Today, it serves over 10 million Americans all across 
our country and over 386,000 seniors right here in our State of 
Wisconsin.
    The Older Americans Act helps seniors live independently in 
their communities through home care, home-delivered and group 
meals, family caregiver support, transportation, as well as 
other services, and last year the Federal funding for these OAA 
programs was $2.3 billion.
    Every 5 years, the government takes a look at OAA programs 
to assess whether they're meeting the needs of the people they 
serve. Today, we are here to listen to your ideas for 
strengthening and improving OAA programs.
    I am Chairman of the Senate Aging Committee. I'll work 
closely with my other Senate colleagues to ensure that your 
recommendations play a prominent role in the debate over the 
future of these very important programs.
    I also have been a strong supporter for a long time for 
adequate funding for OAA programs each and every year. I've 
long championed the National Family Caregiver Support Program 
which provides needed assistance and respite services to family 
members who care for an elderly or disabled relative.
    Also, I'm a long-time supporter of the Long-Term Care 
Ombudsman Program which provides an advocate for elderly and 
disabled patients to help resolve complaints of abuse and 
neglect in long-term care programs.
    Not surprisingly, the need for such vital OAA programs has 
increased during these difficult economic times. Over the next 
year we'll be looking to find the areas in which OAA programs 
are not meeting the needs of today's seniors so we can fill in 
those gaps during the next reauthorization next year.
    Today, we're very fortunate to be joined by the United 
States Assistant Secretary for Aging Kathy Greenlee. We're 
particularly proud to host her here in our State because our 
State is a model for OAA programs in many ways, as you will 
hear from our other witnesses.
    So we thank you again for being here today and we look 
forward to hearing your input and ways that we can improve on 
the OAA Act during reauthorization, not only here in Wisconsin 
but for seniors all across our country. Thank you so much.
    [Applause.]

                Prepared Statement of Senator Herb Kohl

    Hello, everyone. I'd like to thank you for joining us here 
today. It's so nice to be holding an Aging Committee hearing 
here in my hometown.
    In 1965, President Johnson singed into law the Older 
American's Act which provides the bulk of aging-related 
programs. Today, it serves over 10 million Americans 
nationwide, and over 386,000 seniors right here in Wisconsin. 
The Older Americans Act helps seniors live independently in 
their communities through home care, home-delivered and group 
meals, family caregiver support, transportation and other 
services. Last year, federal funding for OAA programs was $2.3 
billion.
    Every five years, Congress takes a fresh look at OAA 
programs to assess whether they are meeting the needs of the 
people they serve. We are here today to listen to your ideas 
for strengthening and improving OAA programs. As Chair of the 
Senate Aging Committee, I will work closely with my colleagues 
to ensure your recommendations play a prominent role in the 
debate over the future of these programs.
    As a member of the Senate Appropriations Committee, I have 
been a strong supporter for adequate funding for OAA programs 
each year. I have long-championed the National Family Caregiver 
Support Program, which provides needed assistance and respite 
services to family members who care for an elderly or disabled 
relative. I am also a longtime supporter of the Long-Term Care 
Ombudsman Program, which provides an advocate for elderly and 
disabled patients to help resolve complaints of abuse and 
neglect in long-term care.
    Not surprisingly, the need for such vital OAA programs has 
increased during these difficult economic times. Over the next 
year, we will be looking to find the areas in which OAA 
programs are not meeting the needs of today's seniors so we can 
fill in those gaps during reauthorization.
    We are very fortunate to be joined today by U.S. Assistant 
Secretary for Aging Kathy Greenlee. We are particularly proud 
to host her here in Wisconsin because our State is a model for 
OAA programs in many ways, as you will hear from our other 
witnesses.
    Thank you again to all of you for being here. I look 
forward to hearing your input on ways we can improve the Older 
Americans Act during reauthorization, both for Wisconsin's 
seniors and seniors nationwide.

    The Chairman. Our first witness today is Kathy Greenlee. 
Kathy's the Assistant Secretary for Aging at the United States 
Department of Health and Human Services.
    Kathy Greenlee brings over a decade of experience advancing 
the health and independence of seniors and their families. 
Prior to becoming the Assistant Secretary, Ms. Greenlee served 
as Secretary of Aging for the State of Kansas, as well as the 
Kansas State Long-Term Care Ombudsman.
    We're very fortunate to have her with us here today, and we 
would look forward and be delighted, Ms. Greenlee, to receive 
your testimony.

   STATEMENT OF KATHY GREENLEE, U.S. ASSISTANT SECRETARY FOR 
      AGING, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Ms. Greenlee. Thank you, Senator. It's a delight to be with 
you today.
    I'd like to say hello to all my fine colleagues from 
Wisconsin who are in the audience with us.
    It's an honor to be able to testify before the Senate 
Special Committee on Aging at a field hearing. I would like to 
be able to briefly discuss what we've been doing at the 
Administration on Aging to solicit input, and I also look 
forward to remaining for the whole hearing so I can hear what 
the members of the other panel and the audience have to say, as 
well.
    Senator, your leadership in the field of aging precedes you 
and is certainly much well known outside of Wisconsin and it's 
something that I was very well aware of, both as the Kansas 
Ombudsman and the Kansas Secretary of Aging. So I would like to 
thank you.
    You serve in essential positions in Congress the Senate 
Appropriations Committee, Judiciary Committee, and, of course, 
as Chair of the Special Committee on Aging. It's critical to 
have champions for seniors, and I'd like to commend you for 
what you've been able to do for the seniors of Wisconsin as 
well as for the seniors of the Nation.
    This is the first visit I've made as Assistant Secretary to 
Wisconsin. As a lifelong Kansan, I'll tell you I've spent my 
tourist dollars here but I've been to Dane County. I've been to 
Door County. But this is the first chance to come and really 
talk to you about the needs of Wisconsin seniors and also to 
commend you on the leadership of your network.
    As you just mentioned, the Wisconsin model, the Aging and 
Disability Resource Centers have led the Nation, and I'd like 
to specifically acknowledge Donna McDowell. Donna is the bureau 
director of the Wisconsin Aging and Disability Resource Bureau 
and I know you know of Donna's leadership here. She's also 
served on her National Association Board and has been a 
national leader in this work, as well.
    This is a great place, I think, to be a senior and you're 
well deserving of these good services.
    As you just mentioned, the Older Americans Act was passed 
in 1965, 16 days before Medicare and Medicaid were passed. 
Those three laws, the Older Americans Act, Medicare and 
Medicaid, really form the foundation of the programs that we 
have in this country, along with Social Security, to help 
seniors maintain their health and dignity as they age.
    The Older Americans Act, I think, is a quiet member of that 
team but has been steadily for 45 years assisting seniors in 
getting nutrition and supportive services so that they can 
remain independent as they age.
    I have seen the demographics here, and I've seen the 
demographics in the Nation. We are becoming an older Nation, as 
you know, more seniors, more diverse seniors, and one of the 
highest-growing populations are the seniors that are 85 years 
and older.
    We have much to do to be able to provide adequate resources 
to seniors to support them as they age and allow them and 
support them in remaining in their homes and communities. We 
also have much to do together to support family caregivers and 
I know you will hear from a family caregiver this afternoon.
    As you know, family caregivers are 80 percent of the long-
term care system in this country. Their work is essential and 
important, not just to their loved ones but to all of us.
    I think it's also important, before we talk specifically 
about the Older Americans Act, to acknowledge that this was an 
historic year for seniors with the passage of the Affordable 
Care Act and I know of your support for many of the provisions 
in the Affordable Care Act that address seniors.
    I think the Affordable Care Act provides this network a 
tremendous opportunity to showcase what we know best, how to 
support seniors and their health and their living in the 
community, and we look forward to finding new ways to work with 
our partners within the Department of Health and Human Services 
but also with the Members of Congress on how we can use the 
Affordable Care Act to its fullest.
    One piece of that that's so important is the Elder Justice 
Act. It passed after 10 years, and we're very, very pleased.
    [Applause.]
    The Elder Justice Act is critical. What I began doing on my 
own journey with regard to reauthorization was hold a series of 
reauthorization listening sessions. I had a full day hearing in 
Dallas, one in Alexandria, VA, and one in San Francisco in 
March.
    I had testimony from over 300 individuals at those three 
hearings. In addition, I did a webinar with Jane Oates, who's 
the Assistant Secretary for Employment and Training at the 
Department of Labor, to talk specifically about the Senior 
Community Services Employment Program, Title V, of the Older 
Americans Act. We also took input on our website and encouraged 
community organizations to hold gatherings so that they could 
provide us their information about the reauthorization and 
there are many things that we know by having these national 
hearings and some of the concepts are overarching and not 
specific to a specific title.
    The single point of entry for individuals seeking services 
is critical, and something that you know very well. Person-
centered care and self-directed care are universal concepts 
that need to continue to be embodied with the Act.
    States and local organizations have talked about the need 
for flexibility and being able to tailor the services to the 
unique needs of an individual. That flexibility has been a 
hallmark of this Act, so we can provide specific services to a 
specific individual and their family and that continues to be 
something that's very much embraced, as well as the integration 
of medical services with human services, so that we can look to 
find the best of science to help integrate into the best of 
social services, and then, of course, the workforce.
    I mean, all of us know that even though family caregivers 
are 80 percent of the long-term care, we need increasing 
numbers of workforce to help with geriatrics, everything from 
geriatricians to direct care workers, and that certainly was a 
common theme as I took testimony.
    With regard to the specifics on the Older Americans Act, 
the comments were grouped into a couple of categories, one 
having to do with the structure and the other having to do with 
service and delivery.
    I'll just run through some of these, and I could talk about 
each of these topics at length and I know I don't have time to 
do that.
    The original Declaration of Objectives in the Act is still 
valid, that the guiding principles of helping to create a 
society that enhances the lives of older individuals is still 
critical. The role of advocacy is also something that needs to 
be supported and embraced up and down the network, starting 
from my role as Assistant Secretary to the grassroots 
individuals, to really advocate on behalf of seniors.
    I heard a lot of people talk about one of the best things 
about the Older Americans Act is the requirement that 
individuals advocate on behalf of seniors.
    The importance of home- and community-based services. All 
of the programs that we have within Title III, which is where 
we have supportive services and nutrition funding, were 
universally supported in the testimony that I have received, as 
well as, as I said, the Aging and Disability Resource Centers 
and flexibility.
    We also, in the last few years at the Administration on 
Aging, have been focusing more on health promotion and 
evidence-based health programs. That concept has been embraced 
by this national network. We want to have good science behind 
the health services that we provide to seniors and their 
supporters.
    Of course, support for caregivers. There are caregiving 
relationships of all kinds and what we need, I think, is to be 
responsive to the needs of caregivers and see that families 
come in different kinds. We have family members caring for each 
other. We have friends caring for people. We have grandparents 
raising grandchildren, that caregiving is critical.
    I certainly don't need to point out to this audience that 
the issues of the rural nature of this country in many States 
comes up and when I hear from my friends further to the West 
and the North Central Plains, they even talk to me about what 
it's like to live on the frontier, that there are people who 
are aging in rural America who have quite a distance to travel 
to receive services.
    It's also been presented to me the need to continue to be 
innovative. We've always funded through Title IV of the Older 
Americans Act innovation and training, and I've met many people 
who got into this work because we were able to support them 
through the Older Americans Act, as well as I mentioned the 
need to collaborate with the Department of Labor on community 
services and supporting seniors who need job support and the 
ability to give back through community services.
    Title VI of the law, and I am trying to describe these to 
the audience by description, not just title, but Title VI of 
the law is specific for tribal organizations. Our relationship 
at the Federal level is directly with the sovereign 
organizations of the Tribes and we fund those programs directly 
instead of funding them through the State.
    We hear a lot of support for continued consolidation and 
flexibility among the Tribes and even though we've been talking 
about reauthorization, not appropriations, I do want to share 
the incredible comments that I received about the lack of 
resources in Indian Country, that the Tribes really do as much 
as they can with very few resources, and we understand the need 
to be innovative and creative as we partner with them.
    Then last but certainly not least but only finally because 
it's Title VII is the Elder Rights, Elder Justice, the work 
with the Ombudsman Program, and the elder hotlines.
    I think one of the interesting puzzles for us moving 
forward is to figure out how best to use the Elder Justice Act 
that's just passed, the Affordable Care Act and Title VII of 
the Older Americans Act so they fit hand in glove and 
strengthen each other as we move forward.
    Our opportunity internally with reauthorization has just 
started. I've been working with people in the Office of The 
Secretary to work within the Administration, so I can't tell 
you specifically what we will do or present, but want to 
confirm to you that we've been listening and this is a 
tremendously good law. I encourage people to pay attention to 
the needs of seniors. I applaud you for what you've been doing 
and really want to recognize, Senator, your leadership and your 
concern about the reauthorization.
    Thank you very much.
    [Applause.]
    [The prepared statement of Secretary Greenlee follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much. Thank you very much, 
Secretary Greenlee, for your testimony.
    We're looking forward to working with you to reauthorize 
the OAA. I'd like to ask you has the Administration set any 
priorities for Older Americans Act reauthorization and what do 
you view as some of the critical improvements that need to be 
made for the future of OAA?
    Ms. Greenlee. Senator, it's easier for me at this point 
because I'm still working internally with regard to what we 
will present, rather than giving you specifics but to identify 
opportunities.
    I think it's clear in looking at the mission of the 
Administration on Aging, the mission of the Older Americans 
Act, and many of the components of the Affordable Care Act 
health reform--that we as a Nation have embraced community 
living and community services, and that there are many things 
that we can do and need to do moving forward to look at 
community services across populations, so that we can meet the 
cultural needs of people who have diverse backgrounds, that we 
can work with seniors as well as people with disabilities. A 
common platform for all of us moving forward as an aging and 
diverse Nation is community care and community support.
    The Older Americans Act will always be a piece of this but 
will never and was not intended to be a huge, huge component 
but a supportive and critical part. So I think, looking 
forward, that the opportunities and the innovation are looking 
at what we can do to make sure that each of these amplifies the 
other and that we can support seniors living in their homes and 
independently.
    I believe that that's what seniors and their families want. 
I also believe personally that we will always have a need for 
skilled long-term care in some setting that's in a congregate 
setting, such as skilled nursing homes. So while nursing home 
residents are 3 percent of the population, they are some of the 
most vulnerable, and while we talk about community services, we 
must always remember that people who lived as long as they 
could at home but needed care in a different setting.
    The Chairman. In terms of access and affordability, how 
much more or less difficult is it to provide services in urban 
areas versus out in the country?
    Ms. Greenlee. I don't mean to be glib, but it depends on if 
you're talking to a rural or urban provider. That's serious 
because the rural providers, and I know this coming from a 
rural State, will talk about the tremendous cost of time and 
distance, that delivering a meal 50 miles away, a hundred miles 
away is expensive.
    Our urban counterparts, our urban providers will also talk 
about the difficulty of density, of having a great number of 
people to serve and transportation, I think, is the underlying 
concern for both, that we have many people, seniors aging in 
rural counties, without access to transportation, but we also 
have transportation problems in cities and the chore is to 
figure out how best to use transportation resources, regardless 
of where someone lives, to get them the services that they ask 
for.
    The Chairman. As we all know, funding for the current OAA 
programs is already stretched very thin. Some programs have 
more applicants than we are able to serve. While we hope to 
expand OAA in many areas, it seems to me we also need to 
consider where we can consolidate in order not to have runaway 
costs. Do you have some ideas on that?
    Ms. Greenlee. The guidance I would give at this point, 
Senator, is flexibility, that is the beauty of the law, and to 
the degree that we at the Federal level can support the States 
and the area agencies in being able to be flexible with their 
services and creative with their services. This is a grassroots 
network that we built and supported and the most effective use 
of resources are on the ground where a local provider can 
assess what other kinds of supports and systems are in place 
for an individual and provide the most cost-effective and 
efficient programs possible.
    So I think continuing to support the grassroots network is 
the solution.
    The Chairman. Last year, as you know, Federal funding for 
OAA was $2.3 billion and as we look forward to reauthorization, 
I would suppose you're very much aware and cognizant and 
sensitive to the need to provide the same level and quality of 
services while still not stretching that budget unnecessarily. 
You're very much mindful of that, I'm certain?
    Ms. Greenlee. One of the best conversations I've had 
recently in Washington is with the individual who heads the CMS 
Office, Centers for Medicare and Medicaid Services, for 
Innovation Programs.
    I think the future going forward will require us to better 
figure out how much we should invest in medical services and 
how much we should invest in social services, so that they 
complement each other, rather than expecting each to grow 
independently of the other. I think there are some 
opportunities moving forward to use the best practices of this 
network to be able to demonstrate that if we provide home 
services and meals, we can show demonstrated cost savings to 
both Medicare and Medicaid with fewer hospital visits and fewer 
emergency room visits.
    We need the time and the opportunity to look for those best 
practices and be able to highlight the network and from that we 
will have the experience that we need to go more global or at 
least on a national scale. I think we have to look at these 
together.
    The Chairman. How has your experience in the State of 
Kansas enabled you to hit the ground running?
    Ms. Greenlee. Yes, it's been very helpful to have been in a 
State and had the unique position of having a variety of jobs 
that are very important now from being the ombudsman to also 
running a Medicaid agency and being familiar with nursing 
homes.
    I feel like I've had the wonderful opportunity to see 
services on the full range from when seniors first starting 
needing help to when they're in a supported dementia unit in a 
skilled nursing facility.
    I've seen all of the services and the underlying goal, I 
think, for everything that we do is supporting the health of 
seniors. I had one of those epiphany moments in a nursing home 
in Abilene, KS a couple of years ago, when I realized that all 
residents are in the nursing home for one reason they lost 
their health, and so we must support health, support community 
services and make sure that we have quality nursing home care 
when it's needed.
    The Chairman. That's very good, Ms. Greenlee. We very much 
appreciate your taking the time and showing the interest to 
come here to Wisconsin to provide your testimony and we're 
looking forward to working very closely with you over the 
coming year as we've indicated here today we reauthorize the 
OAA Act.
    We've received many testimonies for the record that we 
would like to have a chance to review with you and request that 
you consider them as the Administration goes about 
reauthorizing the program. We very much appreciate your 
willingness not only to be here today but to stay for the 
duration of this hearing so that you can hear what is offered 
from the great State of Wisconsin to you to consider as you go 
about your responsibilities.
    Thank you so much for being here, Kathy Greenlee.
    Ms. Greenlee. Thank you, Senator. Thank you very much.
    [Applause.]
    The Chairman. All right. We turn now to our second panel. 
The first witness on the second panel will be Kay Brown. She's 
the Director of the Education Workforce Income Security Team at 
the U.S. Government Accountability Office, which is GAO. There, 
she focuses on improving government performance and delivering 
benefits and services to low-income as well as vulnerable 
populations.
    After her, we'll be hearing from Dorothy Williams. She's a 
family caregiver from Wauwatosa, who cares for her 101-year-old 
mother, who has dementia. Dorothy will describe her experiences 
with the respite services she has received through the Family 
Caregiver Support Program.
    After Dorothy, we will be hearing from Stephanie Sue Stein, 
who is the Director of the Milwaukee County Department on 
Aging. Ms. Stein administers Older Americans Act programs 
through the Milwaukee County Aging Resource Center. She's on 
the Board of the Wisconsin Geriatric Education Center. She's 
also a member of the State of Wisconsin Long-Term Care Council.
    Finally, we'll be hearing from Heather Bruemmer. She's the 
Executive Director and State Ombudsman for the Wisconsin Board 
on Aging and Long-Term Care where she oversees the Long-Term 
Care Ombudsman Volunteer Program. She also chairs the state's 
Long-Term Care Council and she actively serves on the Coalition 
of Wisconsin's Aging Group Advisory Council.
    We thank you all for being here today and we'll start out 
with Kay Brown.

 STATEMENT OF KAY BROWN, DIRECTOR, EDUCATION WORKFORCE INCOME 
      SECURITY TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Brown. Senator Kohl, I'm pleased to be here today to 
discuss our ongoing work on services provided through Title III 
of the Older Americans Act.
    My remarks are based on preliminary results from our 
national survey of local area agencies on aging and our site 
visits to four States. This work is part of a larger study that 
we are conducting for you.
    Today, I will discuss two topics: what we have learned 
about requests for Title III services and how agencies have 
coped with these requests.
    First, regarding requested services, local agencies 
responding to our survey told us that for seniors, home-
delivered meals and transportation were requested most 
frequently. For caregivers, respite care was in highest demand. 
In fact, for all three of these services, a number of agencies, 
close to one in four, told us they cannot meet all of the 
requests.
    In addition, state and local officials said the number of 
requests are increasing.
    Given these circumstances, local agencies sometimes must 
make difficult decisions about which applicants to serve and 
how much service to provide. Many agencies told us how they 
reach out to those groups targeted under the law, such as low-
income or minority individuals.
    Further, most agencies reported conducting at least some 
screening to assess applicants' need for services, like home-
delivered meals or respite care.
    On the other hand, most local agencies did not screen for 
congregate meals or transportation services.
    In addition to these known service needs, an unknown number 
of seniors who may need services do not request them. In our 
final report due out next year, we hope to estimate the number 
of individuals at high risk of needing services, such as 
transportation and home-based care.
    Moving on to my second issue, how agencies have coped with 
these increasing requests, particularly in the current economic 
environment. As we know, agencies providing services under the 
Older Americans Act rely on multiple funding sources. Many 
reported overall decreases in funding from Fiscal Year 2009 to 
2010.
    Forty-four of 64 survey respondents said state funding, 
which is the second largest source of funding for these 
programs nationally, has decreased. Funds from local 
government, voluntary client contributions, and private sources 
have also fallen.
    So how did local agencies respond? First, as in prior 
years, many responded to changes in demand by transferring 
funds among programs, most often from congregate meals to home-
delivered meals or support services, and some ended up having 
to reduce services due to funding cuts. Twelve of 64 reduced 
support services and 12 reduced nutrition services.
    However, more States found ways to maintain levels. Some 
took steps to reduce administrative costs by, for example, 
stretching meal services supplies, limiting raises for 
employees, or leaving vacant positions unfilled. State 
officials in Wisconsin told us that, due to state budget cuts, 
the agency was unable to fill vacant positions and had cut 
planning, administration, and monitoring activities in order to 
avoid cutting services.
    Others we visited responded to limited funding and growing 
service requests by providing service to all who requested it 
but in smaller doses, such as fewer transit rides or fewer 
respite care hours.
    The additional $97 million from the Recovery Act 
specifically designated for home-based and congregate meals 
helped some local agencies to temporarily fill gaps in their 
nutrition services budget. Many expanded existing programs, 
though, and some created new programs. Ultimately, the majority 
of these agencies expressed concern about how expenses now 
covered by the Recovery Act will be met when the funding ends 
at the end of this year.
    In conclusion, Title III provides invaluable supports for 
older Americans. The need for these services will only increase 
over time as the number of people aged 60 and older continues 
to grow.
    Further, the current fiscal stress and looming deficits may 
continue to strain program resources. As a result, it will be 
increasingly important for home- and community-based services 
networks to make sure they're focusing on those in greatest 
need.
    This concludes my prepared statement. Thank you.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Kay. Now we'll speak to 
Dorothy Williams. We'd love to hear your testimony.

 STATEMENT OF DOROTHY WILLIAMS, FAMILY CAREGIVER, WAUWATOSA, WI

    Ms. Williams. Hi. I'm Dottie Williams, and I represent a 
family caregiver. I take care of my 101-year-old mom in our 
home, and I do this 24/7, 52 weeks of the year.
    Two years ago, my mom broke her hip and when she was being 
discharged from a rehab facility, I was asked to meet with a 
Milwaukee social worker to see if they could help me and I 
didn't think it was any help because my mom had a tiny sum of 
money saved for one year of nursing home in case something 
catastrophic happened and we couldn't care for her anymore in 
our home.
    Lo and behold, this wonderful social worker told me that 
there was a fund through a national funding but it wasn't for 
my mom. It was respite care for me, and it wasn't based on 
income, it was based on need. I was really blown away. In fact, 
I probably started to cry.
    Anyway, I was accepted in the program and she said it was 
for respite. So I hadn't really thought about respite. I had 
been told about respite, but I thought I was strong. I was 
fine. I didn't need it. But here was this respite given to me 
and I started using it. I worked through an agency and I 
started having dates with my husband. I started to reconnect 
with friends. I saw my doctor, and I realized I had become this 
dried-out sponge that wasn't a very nice person.
    If you've taken care of anybody with dementia or anybody 
with disability, you realize you have to be happy, can never 
lose your temper, can't pout or throw a temper tantrum. You 
have to always be pleasant and cheerful and positive, and I 
realized I hadn't been that person and the respite care really 
rejuvenated me, filled me up again, and helped me be a better 
caregiver.
    So I realized, you know, you hear the phrases about wanting 
something or is it about needing something. I realized that 
respite care for a caregiver is a need. It isn't a want.
    Then, last, I would just urge you to please renew the OAA 
Act. It funds this National Family Caregiver Program that I 
receive funds from. I would love it if there was a way to 
expand it for more families or other needs or even lengthen it. 
This is a short-term program. It isn't a long-term program.
    Wisconsin, fortunately, has some other programs in place to 
help people, such as my mom and myself, and I just want to 
again thank you for this wonderful gift that was given me.
    Thank you.
    [The prepared statement of Ms. Williams follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Dorothy.
    [Applause.]
    The Chairman. Stephanie, we'd love to hear from you. Pull 
the microphone up as close as you can.

   STATEMENT OF STEPHANIE STEIN, DIRECTOR, MILWAUKEE COUNTY 
                      DEPARTMENT ON AGING

    Ms. Stein. OK. Senator Kohl, thank you so much for having 
this field hearing here. I know that your heart is with the 
people of Wisconsin and the people of Milwaukee and our heart 
is with you and we are so appreciative of your efforts in the 
Senate around elder rights and justice and pension rights and 
nursing home safety, but, most of all, for 90,000 people in 
Wisconsin, let me thank you for senior care and what you did 
for these citizens.
    [Applause.]
    It's also a wonderful opportunity to meet and hear 
Secretary Greenlee. We now know that the Administration on 
Aging is in very good hands and that is a relief. Thank you so 
much for being here.
    [Applause.]
    As Congress moves to reauthorize the Older Americans Act, 
please keep in mind that the Older Americans Act programs are 
truly the fundamental national underpinnings of home- and 
community-based care.
    In Milwaukee County, Wilson Park, where we are today, hosts 
one of our 30 congregate meal sites where every day thousands 
of people get a good meal and friendship and have some fun. 
Every day in Milwaukee County, because of the Older Americans 
Act, we deliver 850 home-delivered meals to homebound seniors. 
Every day, hundreds of people receive rides because of the 
Older Americans Act to see their doctor, to go shopping, or to 
come to a nutrition program and get out of the house.
    Dozens of people, like Dottie, receive care through the 
National Family Caregivers Support Program, so that caregivers 
can continue on with the difficult and blessed job of caring 
for the people that they love.
    The last reauthorization was pretty special to Wisconsin 
because it began to replicate aging and disability resource 
centers which we are so proud started in this State and are 
still very supportive.
    [Applause.]
    The Act also expanded nursing home diversion, a big thing 
close to our hearts, and helped us offer more wellness and 
prevention services to help people stay out of institutions.
    I hope, as you leave, you'll look at our fitness center 
here where older people for free get a personal trainer and get 
to work out and get strong and stay as strong as they can 
possibly be.
    So the programs in the Older Americans Act are very 
important, they are very appreciated, and they are very under-
funded. So any money, extra money that can be appropriated for 
the title, Senator Kohl, will be greatly appreciated in 
Wisconsin.
    However, the Older Americans Act is more than programs. The 
Act is based on the principles of the full participation of our 
Nation's older Americans in all aspects of our complex society 
and in order to support those principles, it created very 
important structures: the Administration on Aging, our State 
Aging Unit, and Area Agencies on Aging throughout the United 
States to help carry out the Act.
    As an area agency on aging, the Milwaukee County Department 
on Aging has had great success because the Older Americans Act 
orders that we lead, we listen, and that we advocate.
    As an area agency on aging, we lead collaborations to find 
lasting solutions for issues in our community. Our 
collaborations have resulted in onsite services and supports in 
public housing and low-income housing, a mature worker center 
where older people seeking employment can go to one place and 
help them in their job search run by the Interfaith Program for 
Older Adults, a Robert Wood Johnson Foundation grant, which 
allowed us to transform seven neighborhoods into caring, 
connected, elder-friendly communities, an economic security 
initiative led by Family Service, our Intergenerational Council 
and our Wellness Council, and many, many other initiatives.
    The Older Americans Act requires that we listen to older 
adults. They are to be our advisors. In this community, older 
adults lead our work through our Commission on Aging, our 
advisory councils, our nutrition council, our neighborhood 
teams, and all of our trained senior statesmen in this 
community. Older people contribute to every aspect of the work 
of our area agency.
    Now, I could recognize dozens of people in this room but I 
really want to thank the current Chair of our Commission on 
Aging Barbara Bechtel.
    [Applause.]
    Our Chair Emeritus of the Milwaukee County Commission on 
Aging, Commissioner Gwen Jackson.
    [Applause.]
    They keep me very busy, Senator. Finally and most 
important, the Act requires us to be effective, visible 
advocates.
    In Wisconsin, we have helped advocate for a real affordable 
drug program, Senior Care, an end to waiting lists for home- 
and community-based care, Family Care, a strong Ombudsman 
Program, and a well-funded Benefit Specialist Program to help 
others.
    On August 24, our Commission on Aging and Advisory Council 
held a public working session on reauthorization of the Older 
Americans Act so we could submit recommendations to you and the 
Administration on Aging and all of our recommendations are 
attached to my written testimony, but our highest priorities 
turned out to be continued support and the growth of wellness 
and prevention and not just for older people but for their 
caregivers, too.
    A national transportation initiative as a new part of this 
Act because, as Secretary Greenlee testified, transportation is 
an underlying issue no matter where you live in this country.
    [Applause.]
    The formalization of aging and disability resource centers 
everywhere in the United States, so that everyone has the 
opportunities we have in Wisconsin and, most important, a way 
to fund advocacy.
    We would like the Administration and Congress to consider 
creating state protection and advocacy agencies for aging in 
every State modeled on the disability protection and advocacy 
agencies that are so, so successful in this State and the rest 
of the country because it is through advocacy that the other 
systems get changed and we get to make better use of that very 
small Older Americans Act money.
    Finally, I'd have three personal things I'd like to ask, 
Senator. One is that we need a national effort to rebuild and 
modernize outdated non-appropriate nursing homes in this 
country.
    [Applause.]
    We need a national effort to bring older adults into the 
technology revolution, so that when three-quarters of our 
citizens are walking around with buttons in their ears and 
pushing screens, older people will have some idea of what's 
going on in those devices.
    [Applause.]
    I would like us to work on a national agreement about what 
assisted living really means, what it really offers, so 
consumers know what to expect when it comes to this huge 
industry that is very different that calls itself assisted 
living.
    [Applause.]
    Everywhere in the United States there are great 
expectations about the reauthorization of the Act and I know 
that with your help, many of those expectations can be 
realized.
    Thank you so much, Senator Kohl.
    [Applause.]
    [The prepared statement of Ms. Stein follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you very much, Stephanie, and now we'll 
hear from Heather Bruemmer.

  STATEMENT OF HEATHER BRUEMMER, EXECUTIVE DIRECTOR AND STATE 
     OMBUDSMAN, WISCONSIN BOARD ON AGING AND LONG-TERM CARE

    Ms. Bruemmer. Thank you so much, Senator Kohl. It truly is 
an honor to be here. Thank you so much for the opportunity to 
testify on the reauthorization of the Older Americans Act.
    I also want to recognize Assistant Secretary Kathy Greenlee 
for her strong advocacy for the older adults.
    Senator Kohl, I know Stephanie made a list of all of the 
great successes you've had, but one that I really want to 
recognize and thank you for is the criminal background checks. 
Thank you so much. That's just so important----
    [Applause.]
    For our vulnerable individuals residing.
    Since 1978, the Ombudsman Program has been a core program 
of the Older Americans Act. It's the only program in the Act 
that specifically serves consumers of services provided by 
residential care facilities. It provides critically needed 
home- and community-based services that delay 
institutionalization.
    In November 2008, we had a very significant thing happen 
here in Wisconsin where we now have more assisted living beds 
than we do nursing home beds, and I only see in the future that 
this trend will continue.
    We all appreciate and value the importance of living in 
one's own home and as a result there's been a remarkable growth 
here in the State of Wisconsin of home- and community-based 
services available for our seniors.
    However, there are some elders who benefit from living in 
assisted living and nursing homes because they're unable to 
safely live in their own homes.
    Wisconsin was one of the first States to pilot the Long-
Term Care Ombudsman Program which was created by Congress and 
our State has continuously relied and improved resources 
available to our senior services. In 1981, the legislature 
created the Board on Aging and Long-Term Care and our program 
continues to grow. We provide advocacy services for nursing 
homes, assisted living, such as residential care apartment 
complexes, community-based residential facilities, adult family 
homes, and persons who reside in their own homes receiving 
Medicaid Waiver Program dollars.
    As long-term care services and supports have grown in scope 
and complexity, Federal support for the Long-Term Care 
Ombudsman Program has not always grown with them. While the 
mandate to serve residents in assisted living was added to our 
mission in 1981, there is no new fiscal authorization for this 
function.
    Ombudsmen visited about 79 percent of all nursing homes on 
a quarterly basis last year. Only 46 percent of all board and 
care assisted living received quarterly visits. Very 
significant, and I would say here in Wisconsin we would agree 
with that.
    Throughout the country, it has been increasingly difficult 
for ombudsman programs to serve residents in assisted living. 
So it's very important, I think, for everyone to know that it 
is not--the lack of sufficient funding is certainly not for the 
lack of trying by you, Senator Kohl. You've been a great 
champion and great support for the Ombudsman Program.
    Each year the Long-Term Care Ombudsman Program resolves 
hundreds and thousands of complaints made on behalf of aging 
consumers nationwide. Seventy-seven percent of these complaints 
are partially resolved which is pretty significant. We know 
that the complaints coming in truly are of great concern.
    The majority of ombudsmen spend time in skilled nursing 
facilities, so it's important to know what is happening in our 
Wisconsin assisted living facilities here. We believe that 
people have complaints and concerns. However, we can't confirm 
that with any degree of certainty due to our inability to visit 
those facilities.
    We offer significant consumer protections to residents. I 
think what we've noted in the last years, complexity and 
diversity of consumers who live in assisted living facilities 
continues to grow as well as in nursing homes. Significant 
concerns, such as falls, medication errors, pressure ulcers, 
and abuse situations, are on the rise here in the State.
    We spend a tremendous amount of time investigating those 
complaints, but, most importantly, we also try to provide 
education and guidance to facility managers and staff to help 
prevent these reoccurrences.
    We also spend time educating and empowering facility 
leadership, individuals and families in providing care that is 
consumer-centered. You know, our seniors are our greatest gift 
and they're full of wisdom and full of life experiences. So 
it's important to know who is that individual that we're 
serving, what is their life history, and really make sure that 
they have meaning and full relationships with their caregivers. 
Every senior deserves the best quality life and care.
    I would like to propose the following modifications to the 
Older Americans Act. The section of the Act relating to the 
process of and limitations on disclosure of client information 
needs clarification and emphasis. The current language needs to 
be emphasized to make clear to facilities that it is this right 
guaranteed to individuals is of the utmost importance to 
meeting the goals of the Act.
    Ombudsmen throughout the country report having contact with 
more and more individuals who cannot speak for themselves and 
have no legally authorized representative to speak on their 
behalf and those are our most vulnerable people who we really 
need to advocate for and protect.
    We ask that the provisions in Title VII be amended to add 
language that states to intensify the training and efforts, to 
educate the public how important it is to complete the 
documents necessary to have a trusted, and I can't emphasize 
that enough, a trusted surrogacy relationship with the personal 
advocate. We spend so much time here in Wisconsin with 
individuals that have no family, that really depend on our 
advocacy services.
    We support the recommendation which would amend Title II of 
the Act to propose a base appropriation for our National 
Ombudsman Resource Center. It has proven to be a valuable site 
for ombudsmen programs throughout the Nation for training, 
resources, and technical assistance, despite inadequate funding 
throughout its history.
    This, along with the addition of Becky Kurtz as the 
Director of Long-Term Care Ombudsman Program, will well serve 
the needs of ombudsman programs nationwide.
    We wish to thank Assistant Secretary Greenlee for her 
foresight in creating this position. Wisconsin has such a 
unique ombudsman program. We're very fortunate with the support 
of you, Senator Kohl, in Wisconsin. Not every State has that 
support. So thank you.
    The Older Americans Act gives us a strong foundation and 
reauthorization gives us this wonderful window of opportunity 
to build an even more stronger foundation. It is extremely 
important that Congress and the aging network come together to 
strengthen our Long-Term Care Ombudsman Programs to provide a 
safe, home-like environment and protect those members of our 
aging society who are receiving services and residential care.
    As one who speaks for Wisconsin's many vulnerable facility 
residents and consumers of long-term care, I want to thank you 
once again, Senator Kohl, for allowing me to share with you the 
thoughts about the reauthorization of the Older Americans Act.
    Thank you very much.
    [Applause.]
    [The prepared statement of Ms. Bruemmer follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. Stephanie, you spoke about or 
referred to inappropriate outdated nursing homes as an issue 
that needs to be dealt with.
    Would you tell us a little bit more about your thoughts on 
that issue?
    Ms. Stein. I sure will, Senator Kohl. I think that people 
realize that nursing homes happened as a result of Medicaid, a 
payment source, and some Federal money that helped people build 
and at that time, people thought that people who lived in 
nursing homes had to be treated in a medical model. So there 
are long corridors and nurses stations and two and three people 
in a room. It is not the way that any of us want to live the 
rest of our lives.
    [Applause.]
    I don't believe that the nursing home industry really wants 
to continue serving people that way, but there is no way for 
them to access capital, especially nursing homes who serve 
people on Medicaid.
    You know, there are some great experiments going on in this 
country through the Pioneers of Nursing Home Care, but they are 
primarily folks who are developing new models and new systems 
for people with a lot of resources who can afford to privately 
pay for them the rest of their lives.
    Most older people enter nursing homes on private pay and 
then go on Medicaid because their money is all gone and 
Medicaid payments are simply not enough for nursing home 
operators to have the capital to build facilities so that 
people can get care in a dignified, home-like, personalized 
way, and I think, you know, the Older Americans Act is about 
home- and community-based care.
    We're about home-and community-based care, but it is a 
national shame that we walk into these places and we give them 
lots of citations and we expect them to get better and they are 
in facilities that are simply not appropriate for people to 
live in.
    [Applause.]
    The Chairman. Are you suggesting that we have way too many 
facilities that should not be operating anymore?
    Ms. Stein. Oh, there are many facilities that shouldn't be 
operating anymore, Senator, but often poor people and people 
who are going to become poor have no other choices but to enter 
those facilities.
    The Chairman. Thank you. Now to each member of the panel, 
as we all know, we have a very important person with us here 
today who will be central to the reauthorization of the OAA in 
terms of specifics and advocacy ideas that she will take and 
this is your chance to zero in on maybe one thing that you want 
her to remember.
    She's not going to take six or eight ideas from each of us 
but she will take one idea that you want her to remember as she 
goes about her job over these next several months and into next 
year. So I'll give you each an opportunity to speak with her 
courteously but sternly.
    Who would like to advocate first for something you really 
feel strongly about in the reauthorization? Go ahead, 
Stephanie.
    Ms. Stein. Secretary Greenlee, I was so happy when you sat 
up here and said that everywhere you go in this country people 
tell you don't lose the advocacy in the Older Americans Act, 
but it's more than not losing it.
    We are required to be advocates but there is no money to be 
advocates and there is no checking up if people are advocates, 
no requirements, and I really think that the disability 
community has had for a long time a model of advocacy through 
their protection and advocacy agencies and wouldn't it be 
wonderful if we could replicate those agencies for aging in 
every State and then we'd know there would be advocates that we 
would work with that could organize the entire State, could 
change systems, and work on behalf of other people.
    So in this State, advocacy has changed almost everything 
that we've done and I'd sure like that to happen everywhere.
    [Applause.]
    The Chairman. Go ahead, Heather.
    Ms. Bruemmer. Thank you very much. I think the message I'd 
like to share is with elder abuse protections. I think it's so 
vital. I oftentimes find, especially within the Ombudsman 
Program, that we're reactive rather than proactive.
    If we had the resources to go out and train and provide the 
adequate information and tools for individuals to help protect 
themselves and have the right advocacy services, it would be 
tremendous. It's so important. The vulnerability and as we know 
through the demographics, it's just--Wisconsin is an aging 
state and we need to be proactive with the appropriate 
resources, being able to get into facilities timely and being 
able to get into people's homes to make sure that they are 
protected and well cared for.
    The Chairman. Thank you.
    [Applause.]
    Dottie, would you like to say something to Kathy?
    Ms. Brown. Actually, I would like to make a request that 
when we finish our two jobs that we have ongoing right now, the 
one I mentioned that is on studying the unmet need for services 
and also we have a job that we're doing for the Senator on 
elder abuse and a better understanding of the nature and extent 
of elder abuse and what kinds of things the government can do 
to help at the local level.
    So my request would be that when we finish those reports, 
we talk again.
    The Chairman. Thank you very much, Kay.
    [Applause.]
    Dottie, say a few words to Kathy.
    Ms. Williams. I feel that these experts have said many of 
the things that I've been thinking about, but I do appreciate 
what Kathy Greenlee said about the funding for rural needs.
    I'm not an expert on any of this, but it would be nice if 
there was a way to network between agencies, you know. Some 
counties run out of funds, some counties don't use all their 
funds, and if there was a way to have a more equitable 
networking so that counties could help each other care for the 
seniors that are in their counties.
    That's all I have to say. Thank you.
    The Chairman. That's very good.
    [Applause.]
    Dottie, I'd like to ask you whether those people who are 
anticipating or just getting into the caregiving program that 
you're involved in need to get some training and introduction 
before they're involved? Could that be very important?
    Ms. Williams. I guess I learned on the fly. I mean, I'm 
just my mother's daughter. I guess I was pretty ignorant. I 
didn't ask a lot of questions and probably I should have talked 
to the Director of Aging earlier and that was my fault.
    I think if I had accessed more departments, I would have 
had more knowledge and when I was receiving help, it was sort 
of in a transition period when Milwaukee County was having 
Interfaith take over some of these responsibilities. So it was 
kind of a learning experience, both with Milwaukee County as 
well as Interfaith, and so everybody was kind of learning at 
the same time, but having been involved with Interfaith now, 
there are a lot of resources available and I feel very 
confident in contacting Interfaith and Pat Bruce, who is very 
helpful in helping me, and I think they would help you with 
training if you needed it.
    I have not found in my situation that I needed particularly 
professional training because in my situation, dealing with my 
mother who has dementia, it's a very gradual process and so 
you're kind of learning along with that person.
    The Chairman. Good. Well, we want to thank you all on this 
panel. You're clearly and obviously people with great expertise 
and knowledge and experience and good judgment. We couldn't 
have found four better people to come and represent the issues 
and I'm sure that Kathy feels that she's fortunate to have 
heard from you today. So we thank you for coming.
    [Applause.]
    Thank you so much and maybe we'd like Kathy to come and sit 
before us once more and make some final judgments and opinions.
    Ms. Greenlee. Thank you, Senator. I'd like to join you in 
thanking the panel members for providing their insights and 
what is sometimes both passionate and very personal 
information.
    I have a quick announcement and then if I could make some 
general comments. One of the things that we do at the 
Administration on Aging is administer lifespan respite grants. 
The program that we've talked about today, the Family Caregiver 
Program, has been around for 10 years at the Administration on 
Aging, but a year ago we began administering grants called 
Lifespan Respite because, as I mentioned and as you know, 
caregiving really spans the lifespan.
    For the second year we've had $2.5 million to administer, 
and I announced this morning 12 additional grants. We had 12 
last year, 12 this year, and we were pleased to announce this 
morning that Wisconsin has received one of these lifespan 
respite grants. So I just wanted to say congratulations to you 
all.
    [Applause.]
    Yes, go team or something. The purpose of the grants is 
coordination. Unlike the Family Caregiver Program where it's 
specific to an individual, we understand that there are respite 
programs that need better coordination, more information, a 
comprehensive need for volunteers, and the lifespan respite 
grants are meant to help a State coordinate their respite 
services and so they can be as good quality and grow as they 
can. So I'm very proud of you and congratulations to Wisconsin 
for that grant.
    Then just a couple of comments. Just in reflection, I said 
I listened to 310 people and you really got to the ground in 
four. So I was impressed that you go to the same place I did in 
terms of hearing from the network.
    The project in front of us, as you know, is to reauthorize 
the law and you and I certainly know what that task involves 
and for the audience, when you reauthorize a law, you look at 
the law and say, well, is it written the way we want it or 
should we write it a different way? It's about what's written 
in the law.
    I have heard a lot of opinion about things that could be 
written differently and will work with the Administration on 
whether we should change the law.
    With regard to the Older Americans Act, it's almost 
impossible to talk about the law and not talk about the 
funding, but the reauthorization is about the law. 
Appropriations is about the funding, and this comes up time and 
time again and you heard it certainly in the GAO report, that 
there's tremendous need for these services and they provide 
tremendous value.
    Right now in front of Congress, the President has 
recommended for the Administration on Aging a 10 percent 
increase in Older Americans Act funds. He recommended $102.5 
million increase for our programs. That money was characterized 
overall as a family caregiver or caregiver initiative. That 
money would allow us through OAA to support direct caregiver 
services, direct care recipient services, and would double the 
lifespan respite grants that I just mentioned.
    I have been meeting with Members of Congress and their 
staff and will do everything I can to support the President's 
request for increased funding for the Older Americans Act.
    I very much appreciate being able to come to talk to you 
about both the authority and the law and the appropriations 
that go with it and look forward to seeing you again either in 
Wisconsin or certainly in Washington.
    Thank you very much.
    [Applause.]
    The Chairman. Thank you. Thank you very much, Kathy, and 
all of our witnesses and ladies and gentlemen, for being here 
today.
    I think the purpose of the hearing was to be sure that 
Washington, through Kathy Greenlee, got a very strong opinion 
from experienced people here in the great State of Wisconsin 
about the things we can do to strengthen services to older 
Americans and the people on the panel acquitted themselves and 
brought that information, that experience, I think, to this 
hearing very, very well. I'm sure Kathy feels that she's more 
than gotten back knowledge here which she put in by way of 
coming here and you're coming here in such huge numbers to 
represent the issue and to impress upon us how much you care 
about services to older Americans, I think, has made a very 
strong impression on her. I assure you it's made a very strong 
impression on me.
    So we thank you deeply for giving us your time today and we 
hope to return to you by way of good valuable service all that 
you've brought to us by your presence.
    Thank you so much.
    [Applause.]
    [The committee adjourned at 2:07 p.m.]


















                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
